U.S. Department of the Interior
Office of Inspector General

                             Audit Report

       Qualifying Certificate Program
Guam Economic Development Authority
                Government of Guam




                            Report No. 01-I-419
                               September 2001
                                                                        N-IN-GUA-006-99-(B)-M



              United States Department of the Interior
                              OFFICE OF INSPECTOR GENERAL
                                      Pacific Field Office
                                    415 Chalan San Antonio
                                   Baltej Pavilion, Suite 306
                                   Tamuning, Guam 96913


                                                                           September 30, 2001

Mr. Chris Murphy
Chairman, Board of Directors
Guam Economic Development Authority
ITC Building, Suite 511
590 South Marine Drive
Tamuning, Guam 96911

Subject:    Audit Report on the Qualifying Certificate Program, Guam Economic
            Development Authority, Government of Guam (Report No. 01-I-419)

Dear Mr. Murphy:

       This report presents the results of our audit of the Qualifying Certificate Program
administered by the Guam Economic Development Authority.

        Please provide a response to this report by November 21, 2001. The response should
provide the information requested in Appendix 3 and should be addressed to our Pacific Field
Office, 415 Chalan San Antonio, Baltej Pavilion - Suite 306, Tamuning, Guam 96913.

      Section 5(a) of the Inspector General Act (5 U.S.C. app. 3) requires the Office of
Inspector General to list this report in its semiannual report to the U.S. Congress. In addition,
the Office of Inspector General provides audit reports to the Congress.

                                                Sincerely,


                                                Arnold E. van Beverhoudt, Jr.
                                                Audit Manager for Insular Areas


cc: Honorable Carl T.C. Gutierrez, Governor of Guam
U.S. Department of the Interior                                    Office of Inspector General

                              EXECUTIVE SUMMARY

                             Qualifying Certificate Program,
                          Guam Economic Development Authority,
                                 Government of Guam
                                  Report No. 01-I-419
                                    September 2001

The Guam Economic Development Authority was established in August 1965 as a public
corporation "to assist in the implementation of an integrated program for the economic development
of Guam" and "to be a catalyst in the economic development" of Guam by "aiding private enterprise
without unfairly competing with it." The Authority is authorized to provide loans, issue revenue
bonds, purchase mortgages, and function as the Government’s financial advisor and as manager
of industrial park leases. In addition, the Authority encourages private sector investment by
granting tax rebates and abatements to qualifying businesses under the Qualifying Certificate
Program.

The objective of our audit was to determine whether the Guam Economic Development Authority
(1) effectively administered the Qualifying Certificate Program and (2) achieved the objectives for
which the Program was established.

Although the Qualifying Certificate Program provided significant benefits to the Guam economy,
we found that there was a need for improvements in the Program. Specifically:

9     The Government of Guam lost tax revenues of at least $769,650 and could lose future tax
      revenues totaling about $70.8 million because the Authority recommended the approval of
      Qualifying Certificates with unnecessarily generous tax benefits to hotel and tourist industry
      firms that may not have needed the level of tax benefits given.

9     The Authority improperly granted tax abatements of $459,777 to beneficiaries that were not
      in compliance with their Qualifying Certificates, apparently used surveillance fees of about
      $220,000 for purposes other than monitoring beneficiary compliance, and authorized
      beneficiaries to receive additional tax benefits of at least $815,990 while concurrently
      allowing the beneficiaries to not employ about 371 Guam residents.
9     Gross receipts taxes of more than $5 million and an undetermined amount of use taxes were
      abated improperly and without verification of the amount or eligibility.

9     Legally mandated investments in Guam’s economy totaling at least $2.3 million may not have
      taken place because the Authority did not include language in Qualifying Certificates
      requiring beneficiaries to reinvest tax benefits and, for those Certificates that included the
      reinvestment requirement, did not monitor the beneficiaries’ compliance.

We made 14 recommendations to the Chairman of the Authority’s Board of Directors to address
these issues by seeking changes to the Qualifying Certificate law, developing standard operating
procedures for some of the Authority’s activities, providing formal training to compliance
monitoring staff, and coordinating with the Division of Revenue and Taxation and the Customs and
Quarantine Agency regarding gross receipts and use tax abatements.

AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL EVALUATION

The Authority concurred with 8 of the report’s 14 recommendations, partially concurred with 1
recommendation, and expressed nonconcurrence with the other 5 recommendations. Based on
the response, we considered 6 recommendations unresolved and requested additional information
for 8 recommendations.




                                                2
                                                 CONTENTS

                                                                                                                     Page

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   5

        BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     5
        OBJECTIVE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            6
        PRIOR AUDIT COVERAGE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             7

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         8

        A.   APPROVAL OF QUALIFYING CERTIFICATES . . . . . . . . . . . . . . . . . . . . 8
        B.   COMPLIANCE WITH QUALIFYING CERTIFICATES . . . . . . . . . . . . . . . 22
        C.   ABATEMENT OF GROSS RECEIPTS AND USE TAXES . . . . . . . . . . . . . 29
        D.   REINVESTMENT OF TAX BENEFITS . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34

APPENDICES

        1. CLASSIFICATION OF MONETARY AMOUNTS . . . . . . . . . . . . . . . . . . . 38
        2. GUAM ECONOMIC DEVELOPMENT AUTHORITY RESPONSE . . . . . . 39
        3. STATUS OF AUDIT REPORT RECOMMENDATIONS . . . . . . . . . . . . . . . 70




                                                             3
4
                                   INTRODUCTION

BACKGROUND

The Guam Economic Development Authority was established in August 1965 as a public
corporation "to assist in the implementation of an integrated program for the economic development
of Guam" and "to be a catalyst in the economic development" of Guam by "aiding private enterprise
without unfairly competing with it." The Authority is authorized to provide loans, issue revenue
bonds, purchase mortgages, and function as the Government’s financial advisor and as manager
of industrial park leases. In addition, the Authority encourages private sector investment by
granting tax rebates and abatements to qualifying businesses under the Qualifying Certificate
Program.

Title 12, Chapter 58, of the Guam Code Annotated established the Qualifying Certificate Program
to provide eligible businesses with financial assistance through rebates (refunds) of income taxes
paid and abatements (forgiveness) of property taxes owed. Under the original law, which was in
effect from 1965 to 1994, the Government of Guam granted these tax benefits through Qualifying
Certificate contracts with Guam-based corporations engaged or to be engaged in the service,
manufacturing, agriculture, and fishing industries. To be eligible under the Program, businesses had
to either create new employment, replace imports, reduce consumer prices, or create vitally needed
facilities. The first Qualifying Certificate was issued in 1965, and three Qualifying Certificate
beneficiaries have continued to receive tax benefits under the Program for more than 30 years.
During the period of December 31, 1989 to September 5, 1997, the Authority’s Board of
Directors imposed a moratorium on the issuance of Qualifying Certificates to hotels.

In December 1994, the Guam Legislature amended the sections of the Guam Code Annotated
establishing the Qualifying Certificate Program. The amendments included expanding the available
tax benefits by adding gross receipts taxes to the types of taxes eligible for abatement and adding
domestic insurance, captive insurance, nonhotel-tourism related housing development,
communication, and trust companies to the list of eligible industries. The Guam Code Annotated
provides that a Qualifying Certificate may be suspended, rescinded, or revoked by the Governor
of Guam on the recommendation of the Authority for "failure to comply with any condition or
obligation set out in the Certificate after having been notified by the Authority in writing of such
failure to comply and after having been given by the Authority a reasonable period of time within
which to correct such a failure."

As of December 31, 1999, the Authority had 31 active Qualifying Certificates and 10 Qualifying
Certificate applications in process. During fiscal years 1997, 1998, and 1999, the Authority
collected certificate surveillance fees totaling $683,605 and the 31 beneficiary companies received
tax abatements and rebates totaling at least $18 million, as shown in Table 1.




                                                 5
            Table 1. Qualifying Certificates, Surveillance Fees, and Tax Benefits
                           for Fiscal Years 1997, 1998, and 1999

      Certificate               Certificates           Applications              Surveillance   Tax Benefits
      Categories                Outstanding             In Process             Fees Received*** Granted****

Hotel                                15                       5                    $636,355               $9,638,574*
Tourist Facility                      3                       3                      24,000                1,221,871
Domestic Insurance                    6                       0                      14,500                5,389,606
Captive Insurance                     1                       0                       1,750                        0
Medical Facility                      2                       0                       1,000                        0
Communications                        4**                     0                       6,000                1,864,253
Manufacturing                         0                       1                           0                        0
Housing                               0                       1                           0                        0

        Total                        31                     10                     $683,605             $18,114,304
__________
* Includes benefits for 20 Certificates of Exemption issued to contractors on one hotel development project as part of a hotel’s
Qualifying Certificate.
** Includes three Qualifying Certificates issued to corporate shareholders.
*** Consists of legally required fees collected from Certificate holders to defray the cost of performing monitoring.
**** Consists of estimates, based on the best available information from the Department of Revenue and Taxation, of the value
of tax rebates and abatements granted to Certificate holders.




OBJECTIVE AND SCOPE

The objective of our audit was to determine whether the Guam Economic Development Authority
(1) effectively administered the Qualifying Certificate Program and (2) achieved the objectives for
which the Program was established. The original scope of the audit included a review of the
Qualifying Certificates issued during fiscal years 1997, 1998, 1999, and 2000 (through December
31, 1999). We subsequently expanded the audit scope to include the applications for Qualifying
Certificates in process, the monitoring actions taken, and the tax abatement and rebate transactions
processed through June 30, 2000. This is the second of three reports we plan to issue on the
operations of the Guam Economic Development Authority. The other two reports will cover (1)
economic development loan programs and (2) bonds, leases, and financial activities.

To obtain information on the processing and issuance of Qualifying Certificates and the
administration of the Qualifying Certificate Program, we interviewed officials and/or reviewed
records at the offices of the Guam Economic Development Authority, the Authority’s independent
public accounting firm, the Guam Department of Revenue and Taxation, the Guam Customs and
Quarantine Agency, the Guam Department of Public Works, and two beneficiary hotels.

Our review was made, as applicable, in accordance with the "Government Auditing Standards,"
issued by the Comptroller General of the United States. Accordingly, we included such tests of
records and other auditing procedures that were considered necessary under the circumstances.


                                                               6
As part of the audit, we evaluated the system of internal controls related to the financial and
operational management of the Qualifying Certificate Program to the extent that we considered
necessary to accomplish the audit objective. Based on our review, we determined that the
Authority generally achieved the purposes of the Qualifying Certificate Program. However, we
identified internal control weaknesses in the areas of the approval of Qualifying Certificates, the
monitoring of beneficiary compliance, the abatement of gross receipts and use taxes, and the
reinvestment of tax abatements. These weaknesses are discussed in the Findings and
Recommendations section of this report. Our recommendations, if implemented, should improve
the internal controls in these areas.

PRIOR AUDIT COVERAGE

During the past 5 years, neither the U.S. General Accounting Office nor the Office of Inspector
General has issued an audit report on the Guam Economic Development Authority. However, in
November 1990, the Office of Inspector General issued the audit report "Followup Review of the
Guam Economic Development Authority’s Administration of the Qualifying Certificate Program"
(No. 91-I-162). The report discussed the status of recommendations contained in the October
1987 report "Guam Economic Development Authority’s Administration of the Qualifying Certificate
Program" (No. 88-04). The followup report stated that, although 6 of the 10 prior
recommendations had been implemented, the Authority continued to (1) issue Qualifying
Certificates to ineligible businesses; (2) grant recipients the maximum level of benefits allowed
without consideration of limiting tax benefits to the level necessary for businesses to recover the
amount of capital invested; and (3) approve Qualifying Certificates for the hotel industry, which no
longer needed tax benefits. The followup report stated that the deficiencies related to the
Qualifying Certificate Program resulted in potential lost revenues to the Government of Guam
totaling at least $89.7 million. The followup report made six recommendations, and based on our
current review, we determined that four of the six recommendations had not been implemented.




                                                 7
                  FINDINGS AND RECOMMENDATIONS

A. APPROVAL OF QUALIFYING CERTIFICATES

The Government of Guam lost tax revenues of at least $769,650 and could lose future tax revenues
totaling about $70.8 million because the Guam Economic Development Authority recommended
the approval of Qualifying Certificates with unnecessarily generous tax benefits to hotel and tourist
industry firms that may not have needed the level of tax benefits given. This occurred because the
Authority interpreted the Qualifying Certificate law as not allowing the Authority sufficient flexibility
in specifying the terms and conditions of Qualifying Certificates.

Controlling Law

On December 29, 1994, the Guam Legislature amended the 1965 law that established the
Qualifying Certificate Program. The statute (12 G.C.A. § 58105) provides that no Qualifying
Certificate shall be issued unless the Authority finds it will promote the general economic
development by the creation of employment and either (1) the replacement of imports, (2) the
reduction in consumer prices, (3) the creation of affordable housing or other vital facilities, (4) the
creation of economic activity, or (5) the establishment of Guam as a financial/insurance center for
the Pacific and increasing the availability or lowering the cost of insurance. Additionally, the statute
(12 G.C.A. § 58109) requires that the Authority consider several factors and make specific
findings on (1) the impact of the Beneficiary’s proposed activities upon established businesses and
markets in Guam, (2) the financial risk facing the Beneficiary in undertaking the proposed activities,
(3) the location of the proposed activities, and (4) the importance of the proposed activities to the
economy of Guam and to the official economic policies of Guam. Lastly, the statute
(12 G.C.A. § 58110) requires that the Authority consider several factors as terms and conditions
of the specific tax benefits, including limiting the benefits to a certain percentage, varying the rate
of the tax benefit, limiting the benefit to a fixed dollar amount, and conditioning the tax benefits on
the Beneficiary investing in or creating public improvements separate from the proposed activities.

Based on the law, we believe that the Legislature granted the Authority sufficient flexibility to decide
the terms and conditions of Qualifying Certificates and did not limit the Authority to granting
Certificates only for the maximum allowable level of tax benefits.

Projects in Tourist Areas

During the period of September 5, 19971 to December 31, 1999, the Authority recommended
issuing Qualifying Certificates, which did not appear to consider the factors in the statute, to two
hotel expansion projects and one tourist attraction project. In addition, as of June 30, 2000, the
Authority was considering two additional hotel projects that had applied for Qualifying Certificates


1
 The date when the Government of Guam issued the first hotel project qualifying certificate following the
moratorium.
                                                   8
but which also did not appear to consider the statutory factors. According to the Authority’s
Administrator, the legislation establishing the Qualifying Certificate Program required the Authority
to issue certificates even in instances when the Authority did not believe they should be
recommended. The Administrator stated that the portion of the hotel industry located in the Tumon
Bay and Agana Bay areas was well established and that incentives were therefore not necessary
to attract new investments to these areas. The Administrator also noted that a tourist attraction
development at one of Guam’s major tourist sites did not need a Qualifying Certificate in order to
be financially viable. However, as a result of the Authority’s recommendations for approval, the
Government of Guam lost tax revenues of at least $769,650 and may lose future tax revenues of
about $28.5 million on the three projects.

In addition to not considering the statutory factors, economic considerations did not justify the three
Qualifying Certificates. We identified 15 hotels that were constructed during the decade of the
1990s without receiving Qualifying Certificates. Further, the low demand for Guam hotel rooms
during the latter part of the decade, resulting from the Asian economic downturn, did not justify
foregoing future potential tax revenues to increase the level of hotel construction. Specifically,
although the number of hotel rooms increased from 7,052 in 1996 to 9,238 in 1999, the room
occupancy rate decreased from 85 percent in 1996 to 61 percent in 1999.2 Further, by
recommending Qualifying Certificates for hotel projects in the same general area as other hotels
that were constructed and continued to operate without similar tax benefits, the Authority gave an
unfair competitive advantage to the hotels with Qualifying Certificates and tax benefits -- a factor
which the Authority should have considered in accordance with the statute (12 G.C.A. § 58109).

       Hotel Construction Projects. For comparison with hotel construction projects that
benefitted from Qualifying Certificates, we identified two large resort hotels that were constructed
during the 1990s and were operating in the Tumon Bay and Agana Bay tourist areas without
receiving Qualifying Certificates. A 455-room hotel was constructed at Tumon Bay without a
Qualifying Certificate and tax benefits and has been in operation since 1994 (Figure 1).




2
    Hotel statistics are from the Guam Hotel & Restaurant Association.
                                                       9
Figure 1. This 455-room hotel was constructed at Tumon Bay and began operations in 1994 without a
Qualifying Certificate and tax benefits. (Office of Inspector General photograph)




Another hotel was constructed at Agana Bay without benefit of a Qualifying Certificate and tax
benefits and has been in operation since 1992 (Figure 2). In 1996 this hotel constructed a water
park, and as of June 2000, the hotel was constructing a 144-room addition -- both without the
benefit of Qualifying Certificates or tax benefits.




                                               10
Figure 2. This hotel was constructed at Agana Bay and began operations in 1992 without a Qualifying
Certificate and tax benefits. An adjacent water park (left side) was completed in 1996, and a 144-room
addition was under construction as of June 2000 -- both without Qualifying Certificates and tax benefits.
(Office of Inspector General photograph)




In contrast, in proximity to these hotels were other hotel projects that received or were considered
for Qualifying Certificates by the Authority. For example:

       - In June 1998, the Government of Guam issued a Qualifying Certificate to a 500-room
hotel for a project to construct an additional 292-room tower (Figure 3). At the time, the hotel had
almost 8 years remaining on an existing Qualifying Certificate, which was extended for almost
12 additional years under the new Qualifying Certificate. The tax revenues lost by the Government
as a result of the new tax benefits totaled at least $588,000 through June 30, 2000 and will total
an estimated $16.9 million through the almost 20-year life of the new Qualifying Certificate.




                                                  11
Figure 3. A 292-room tower was added to this hotel and began operations in November 1999 with a
Qualifying Certificate and tax benefits that apply to the entire hotel complex. (Office of Inspector General
photograph)




       - In September 1997, the Government of Guam issued a Qualifying Certificate to a hotel for
a water park that had already been constructed and had opened for operations in July 1997
(Figure 4). At the time, the hotel had 5 years remaining on an existing Qualifying Certificate,
which was extended for 15 additional years under the new Qualifying Certificate. The tax revenues
lost by the Government as a result of the new tax benefits totaled $181,650 through June 30, 2000
and will total an estimated $10.7 million through the 20-year life of the new Qualifying Certificate.




                                                    12
Figure 4. This water park (right side) was built adjacent to an existing hotel at Tumon Bay, which is 3.5
miles from the hotel and water park shown in Figure 2. The water park and hotel now operate with a
Qualifying Certificate and tax benefits that apply to both. (Office of Inspector General photograph)




       Tourist Attraction Project. In March 1999, the Board recommended approval of a
Qualifying Certificate to a Guam-based company for development of tourist facilities at the site of
one of Guam’s most prominent tourist attractions (Figure 5). The Board’s recommendation for
approval reversed the Administrator’s recommendation not to approve the application during a
February 23, 1999 meeting of the Authority’s Credit Review Committee. In that meeting, the
Administrator noted:

       Local residents can no longer visit the site free of charge. [The beneficiary] will now
       derive profit from local persons who were previously able to visit this historical
       cultural point free of charge.

       The certificate beneficiaries controlled only 6 percent of the project site and the
       Government of Guam owned the other 94 percent.

       On December 30, 1998, the Government of Guam authorized (and expended) $1.5
       million to improve the site.

       [The developer’s financial] projections and public hearing testimony indicate [the]
       project will be immediately profitable.

       [The net future value of the Government’s $1.5 million] contribution based on the
       average 20 year Q.C. [Qualifying Certificate] term is $3,623,000. . . . The granting


                                                   13
       of a Q.C. on top of this contribution . . . would produce gross inequity between [the
       developer] and other Q.C. beneficiaries.




Figure 5. This tourist attraction project included a parking lot and buildings constructed on Government
of Guam property and an overlook platform and ticket booth/souvenir shop located on the beneficiary
company’s property. (Office of Inspector General photograph)



Although at its February 23, 1999 meeting the Authority’s Credit Review Committee
recommended rejecting the application for Qualifying Certificate, on March 15, 1999 the
Committee reversed its previous decision and recommended approval of the Qualifying Certificate
for the tourist attraction project. This action was taken after the beneficiary had made several
minor concessions, such as agreeing to provide security for the complex, provide a local resident
entrance fee, and contribute funds for cultural programs. In our opinion, the Authority
unnecessarily recommended approval of tax benefits that will result in the potential loss of at least
$900,406 in tax revenues over the 20-year life of the Qualifying Certificate. The location of the
facilities should have been considered and the Authority should have made a specific finding of fact
on that issue in accordance with the statute (12 G.C.A. § 58109).

Timing of Application Filings

Based on our review of 13 Qualifying Certificate application files, we concluded that the Authority
had granted Qualifying Certificates and tax benefits to 10 of the businesses although it appears the
businesses did not need the tax benefits to attract investors, as set forth in the statute
(12 G.C.A. § 58100). In each of these cases, the companies had essentially completed their
financial and architectural planning and obtained building permits prior to applying for Qualifying
Certificates. For example:


                                                  14
       - A hotel affiliated with a major chain did not file a Qualifying Certificate application for a
600-room, 22-floor hotel complex until August 1998, although the necessary building permits had
been approved by the Department of Public Works in 1996 and the project was already under
construction (Figure 6). The Qualifying Certificate was approved in April 2000, or 10 months after
the hotel had already started operations. Based on the timing of the Qualifying Certificate
application, we believe that the hotel would have been constructed even without a Qualifying
Certificate and tax benefits. Based on information in the Authority’s files, we estimate that the
Government will lose tax revenues of at least $24.3 million over the 20-year life of the Qualifying
Certificate. Additionally, the 1994 Qualifying Certificate law (12 G.C.A. § 58100) explicitly states
that the program was being restructured to increase participation by people who live and work on
Guam, as opposed to helping foreign entrepreneurs and off-island investors.




Figure 6. The Authority recommended this hotel project for a Qualifying Certificate in April 2000. The hotel
opened for business in June 1999. An adjacent hotel (shown in Figure 1) was constructed and operates
without a Qualifying Certificate. (Office of Inspector General photograph)



       - Another business did not file a Qualifying Certificate application for a tourist attraction at
Two Lovers Point until November 1998, or 8 months after it had received the necessary building
permit from the Department of Public Works. Prior to receiving the Qualifying Certificate, the
company’s Attorney was quoted in the Pacific Daily News on February 5, 1999 as having stated
that his company would invest in the project whether or not the company received a Qualifying




                                                    15
Certificate. Based on information in the Authority’s files, we estimate that the Government will lose
tax revenues of at least $900,4063 over the 20-year life of the Qualifying Certificate.

In September 1999, the Authority’s Board of Directors passed Resolution 99-040, which
amended the Authority’s standard operating procedures to require applicants to submit the
application for a Qualifying Certificate with property appraisal within 90 days after the building
permits had been issued by the Guam Department of Public works. Although the establishment
of this time requirement was a positive action, we recommend that the Authority further amend its
standard operating procedures to include the requirement for a letter of intent to be submitted 180
days prior to the approval of building permits and amend its rules and regulations to include these
requirements. We believe that the lead time of 180 days would help to ensure that businesses
considered the need for tax benefits early in their investment planning process and did not file
applications for Qualifying Certificates "after the fact" simply because the related tax benefits were
available.

Negotiation of Tax Benefits

Although the Authority negotiated with Qualifying Certificate applicants on non-tax-related benefits,
Authority records indicated that little negotiation was made with applicants to limit the amount and
time period of tax benefits recommended on either new or modified Qualifying Certificates. In
addition, the Authority had not identified or estimated all direct and indirect costs to the
Government of either new or renovation projects. In our opinion, the Authority cannot effectively
negotiate or recommend the granting of tax benefits, potentially worth millions of dollars, to
businesses without identifying all related Government costs.

       Level of Tax Benefits. During the period of October 1, 1996 to December 31, 1999,
the Authority recommended issuing Qualifying Certificates to seven businesses, excluding insurance
companies. Of the seven businesses, the Authority proposed granting the maximum percentage
of income tax rebates (75 percent) to all seven recipients and the maximum period (20 years in four
cases and 19 years in one case) to five of the seven recipients. In addition, in at least six instances,
the Authority recommended that beneficiary firms receive extensions of existing tax benefits to
include both the new project renovations/additions and the original hotel properties that had been
included in prior Certificates. As a result, the six beneficiaries received tax benefits on essentially
the same properties for more than 25 years. For example:

       - A hotel first received a Qualifying Certificate in 1968, and when the hotel was subsequently
sold, the Certificate was assumed by the new owner. In 1979, the new owner applied for and
received a new Certificate consequent to a major expansion. In 1985, a third Certificate was
issued consequent to a 100-room expansion. Most recently, in 1998, a fourth Certificate was
issued based on a 292-room expansion. Each of the four Certificates encompassed the entire hotel


3
 To avoid duplicate counting elsewhere in this finding, this amount was not included in Appendix 1,
"Classification of Monetary Amounts."
                                                  16
and provided a rebate of 75 percent of corporate income taxes and abatement of 100 percent of
property taxes, and the final three Certificates also granted a rebate of 75 percent of income taxes
on dividends. Although the terms of the rebates/abatements varied slightly, with the three
extensions the hotel will receive a total of at least 48 years of income tax rebates, 36 years of
property tax abatements, and 15 years of dividend tax rebates. As a result, and assuming
additional extensions will not be granted, from June 1998 through June 2000 this hotel received
tax benefits of at least $588,000 and from July 2000 through May 2017 will receive an additional
tax benefits estimated to total $16.9 million.4

As of June 30, 2000, another beneficiary had an application under review to receive similar
extended benefits (estimated to total $18 million in tax benefits).

The Guam Code Annotated (12 G.C.A. § 58132(c)) states, "The tax benefits applicable to the
additional activities may be at rates or for a term different from those tax benefits applicable to the
activities described in the original Qualifying Certificate, and the new Qualifying Certificate may
include terms, conditions, rebates or abatements different from those in the original Qualifying
Certificate." The Authority’s Administrator stated that the Authority should have "looked at the
application more closely" before recommending the Qualifying Certificate discussed in the example
above. He further stated that in a similar application now under review, the Authority "is against"
including existing facilities in a new Qualifying Certificate for an addition to the hotel.

Cost/Benefit Analyses

In arriving at the level and terms of tax benefits, the Authority did not adequately consider the
estimated direct and indirect costs to the Government applicable to the capital projects. The
Authority’s Administrator stated that the Authority did not have an economic model to estimate
short- and long-term direct and indirect costs to the Government inherent in large development
projects and to match these costs to potential economic benefits of the projects. Although the
Guam Code Annotated (12 G.C.A. § 58110) and the Authority’s Qualifying Certificate Rules and
Regulations allow the Authority to limit and vary the level and length of tax benefits, the Qualifying
Certificate files we reviewed did not indicate that the Authority had considered recommending
benefit rates and time periods at any levels below the maximums allowed. As a result, the
Authority could not ensure that the tax revenues foregone plus additional related infrastructure and
social costs did not negate the economic benefits resulting from the development projects.
Additionally, although the Government had a voluntary program for beneficiary firms to contribute
toward defraying such related infrastructure costs, the Authority could not provide information on
the amounts, if any, that were contributed by the Qualifying Certificate beneficiaries.

The Guam Code Annotated appears to give the Authority adequate legal authority to negotiate the
level of Qualifying Certificate benefits, terms, and conditions with applicants. However, because
the Authority has not often issued Qualifying Certificates with tax benefits at levels less than the


4
    To avoid duplicate counting elsewhere in the finding, these amounts were not included in Appendix 1.
                                                      17
maximums allowable, it may be beneficial to amend the Code to clearly delineate the circumstances
under which lower-than-maximum-level tax benefits can be granted. In addition, the Authority
could benefit from better information and analytical tools, such as economic models, to estimate
and compare the costs of additional demand on public infrastructure (power, water, and sewer
service) and government services (health, education, and police services) to determine the
economic benefits to be provided by the Qualifying Certificates.

Recommendations

We recommend that the Chairman and the members of the Board of Directors of the Guam
Economic Development Authority, along with the Administrator:

        1. Work with the Guam Legislature to amend Title 12, Chapter 58, of the Guam Code
Annotated (the Qualifying Certificate Law) and related regulations to exclude from program
eligibility tourism projects in established tourist areas of Guam, exclude previously existing facilities
from eligibility for new Qualifying Certificates, require that businesses submit letters of intent to
apply for Qualifying Certificates no less than 180 days prior to obtaining related building permits,
and clearly define the circumstances under which lower than maximum-level tax benefits can be
granted.

We recommend that the Chairman of the Board of Directors of the Guam Economic Development
Authority direct the Authority’s Administrator to:

       2. Establish procedures and develop methods, such as economic models and procedures,
to calculate the economic benefits of tax rebates and abatements by considering the costs to the
Government, including the amount of taxes foregone and the indirect infrastructure and social costs
involved.

      3. Adopt procedures to require that negotiations with Qualifying Certificate applicants are
documented and that the negotiations include the use of all relevant analyses, as described in
Recommendation 2, to ensure that the estimated direct and indirect costs to the Government do
not negate the economic benefits of the Qualifying Certificates.

Guam Economic Development Authority Response and Office of
Inspector General Reply

In the August 10, 2001 response (Appendix 2) to the draft report from the Authority’s Chairman
of the Board, the Authority concurred with Recommendations 2 and 3, and partially concurred
with Recommendation 1. Based on the response, we requested additional information for
Recommendations 2 and 3, and requested that the Authority reconsider Recommendation 1, which
is unresolved (see Appendix 3).




                                                  18
Recommendation 1. Partial concurrence.

         Guam Economic Development Authority Response. The Authority disagreed with the
part of the recommendation to amend the Qualifying Certificate law to exclude from program
eligibility new tourism projects in established tourist areas of Guam. As justification for continuing
to approve Qualifying Certificates for tourism projects in established tourist areas, the Authority
cited various natural and economic disasters, such as Typhoon Paka, the Korean Air Lines Flight
801 crash, and the Asian economic downturn, all of which affected the tourism market on Guam.
Although the Authority concurred with the part of the recommendation to exclude previously
existing facilities from eligibility for new Qualifying Certificates, it disagreed with excluding
established businesses undergoing qualified expansion projects. The Authority also disagreed with
the part of the recommendation to require applicants to submit letters of intent to apply for a
Qualifying Certificate no less than 180 days prior to obtaining the related building permits.
According to the response, standard operating procedures that the Board approved in September
1999 require an applicant to submit a letter of intent 90 days prior to receiving a building permit
and submit the Qualifying Certificate application within 90 days of receiving the building permit.
To support the 90-day lead time, the Authority stated that investors preferred to maintain their
confidentiality for competitive protection for as long as possible, but acknowledged that investors
for construction-intensive projects usually announce plans 6 months in advance. The Authority
concurred with the part of the recommendation to clearly define the circumstances under which
lower than maximum tax benefits can be granted. The Authority criticized the report by stating that
it focused entirely on tax revenue generation and did not consider other economic aspects such as
job generation, cash injection, circulation of money in the economy, and other taxes generated.
The Authority questioned the report’s figure of 15 hotels constructed during the decade of the
1990s without Qualifying Certificates. The Authority also stated that the finding gave "no credence
. . . to the fact that all economic indicators provided by the Guam Visitors Bureau in the latter part
of 1995 indicated that visitors to Guam would exceed 2 million by the year 2000."

       Office of Inspector General Reply. Although not specifically stated in the body of the
report, we acknowledge that businesses participating in the Qualifying Certificate Program
contribute significantly to the economy of Guam, both in terms of net taxes paid and employment
opportunities for Guam residents. However, we believe that the Authority should also attempt to
maximize revenues for the Government of Guam to the greatest extent possible. This is especially
important at a time when the Government of Guam is experiencing serious financial problems and
is having difficulty meeting day-to-day operating expenses. The focus of this report has been to
recommend changes to the Qualifying Certificate Program that should help to generate additional
tax revenues from program participants.

Coincidentally, as this report was being finalized for issuance in September 2001, the Bank of
Hawaii had recently issued a report5 on the economy of Guam that painted a rather bleak picture
for the near-term future of Guam’s hotel/tourist industry. The report cited statistics, provided by


5
    "Guam Economic Report, 2001" issued by the Bank of Hawaii in August 2001.
                                                    19
the Guam Visitors Bureau, which indicate that in the year 2000 there were only 1.2 million (rather
than the hoped for 2 million) visitors, on average only 63 percent of Guam’s 10,050 existing hotel
rooms were occupied, and average room rates had dropped to $100 per night from $130 per night
in 1999. All of these numbers suggest that, at least until a turnaround is experienced in the Asian
(and primarily Japanese) economies, the Guam hotel/tourist industry may have reached a saturation
point. Even the Authority’s response acknowledges that development in the primary Tumon tourist
district may have reached a saturation point. In that light, we made the recommendation that the
Authority stop issuing Qualifying Certificates for new projects in established tourist areas of Guam.
We believe that this would be a prudent course of action, at least until such time as there are
positive signs that the number of visitors to Guam is again on the increase and that the demand for
additional hotel rooms and tourist facilities will also increase beyond existing capacities.

We likewise believe that it would be a prudent course of action, in order to maximize tax revenues,
to refrain from granting Qualifying Certificates to hotels and other tourist facilities that are already
operational. During the audit period, 10 of the 13 applicants that were approved for Qualifying
Certificates in the hotel/tourist business were either already established on Guam or already
committed to starting their projects, as evidenced by their having completed financial and
architectural plans and secured building permits or leases. These businesses hired employees and
invested funds to maintain a predetermined level of service and paid the requisite taxes thereon, and
would have done so even without receiving Qualifying Certificates. Additionally, our audit
disclosed (and we confirmed, despite the questions raised in the Authority’s response) that 15
hotels were constructed during the decade of the 1990s without receiving Qualifying Certificates,
that 11 of the 15 hotels met the Authority’s 100-room minimum eligibility requirement, and that 6
of those 11 hotels also met the Authority’s requirements to be classified as "First Class Hotels."
The other 5 hotels met lesser requirements for classification as "Business Class Hotels" or "Motels."

Lastly, the amendments to the standard operating procedure that were approved by the Authority’s
Board on September 24, 1999 did not include any requirement for a letter of intent, as the
Authority claimed in its response. Since our recommendation ties the lead time of 180 days to the
building permit issuance date, the recommended requirement for a letter of intent would involve
only applicants who were constructing new or expanded facilities. Because the Authority
conceded, in its response, that investors for such projects generally announce construction plans
about 6 months (180 days) in advance, we stand by our recommendation for a 180-day lead time
for the submission of letters of intent.

Recommendation 2. Concurrence.

        Guam Economic Development Authority Response. The Authority stated that it will
continue to refine, improve, and expand its existing economic model to more accurately quantify
all direct and indirect costs of the Qualifying Certificate Program.

       Office of Inspector General Reply. We acknowledge that the Authority uses an
economic model for comparing the benefits to be gained by Guam with the tax incentives granted
Qualifying Certificate recipients. However, that model is flawed in that it does not include

                                                  20
infrastructure impact costs that are to be borne by the Government to upgrade such utilities as
power, water, and sewerage treatment. Also absent from the existing model are the costs of other
Government services, such as police and fire protection. As a result, the actual cost to the
Government for granting tax incentives is understated, and any decision to recommend approval
for granting Qualifying Certificates based on the existing model will be made without complete
information.

Recommendation 3. Concurrence.

      Guam Economic Development Authority Response. The Authority stated that since
1995, it had develop its own form for providing economic analyses of the costs and benefits of
Qualifying Certificates and that this form considers the Government’s permitting process through
the Territorial Land Use Commission and the economic impact to Guam’s infrastructure. The
Authority also stated that it will continue to improve its methods to provide a more comprehensive
model that will account for other direct and indirect costs to the Government.

        Office of Inspector General Reply. Our review of the analysis form used by the
Authority for reviewing applications processed during the audit period disclosed that the form did
not quantify any of the costs that may have been identified in the Territorial Land Use
Commission’s permitting process, nor does it address the economic impact to Guam’s
infrastructure as claimed by the Authority in its response.




                                               21
B. COMPLIANCE WITH QUALIFYING CERTIFICATES

The Guam Economic Development Authority improperly granted tax abatements of $459,777 to
beneficiaries that were not in compliance with their Qualifying Certificates, apparently used
surveillance fees of about $220,000 for purposes other than monitoring beneficiary compliance,
and authorized beneficiaries to receive additional tax benefits of at least $815,9906 while
concurrently allowing the beneficiaries to not employ about 371 Guam residents. This occurred
because the Authority did not effectively monitor Qualifying Certificate beneficiaries to ensure that
they complied with their contractual commitments, including their agreements to employ a specified
number of Guam residents. Instead, the Authority recommended that the Governor grant the
beneficiaries temporary employment waivers. Additionally, the Authority apparently did not use
available financial resources to employ and train compliance staff.

Legal Requirements

       The Guam Code Annotated (12 G.C.A. § 58111) provides that a Qualifying Certificate can
be suspended, rescinded or revoked by the Governor, upon the recommendation of the Authority,
for fraud, noncompliance with the Certificate, bankruptcy, dissolution or death, or noncompliance
with laws and rules. Part II, Section 6, of the Authority’s Rules and Regulations provides that
when the Authority has determined that the terms and conditions of a Qualifying Certificate have
been fulfilled by the recipient, the Authority "shall forward a ‘Certificate of Compliance’ together
with a copy of the recipients’ corporate income tax return and certified financial statements to the
Department of Revenue and Taxation." Section 7a states, "When it has been determined by the
Administrator that the terms and conditions stipulated on the Qualifying Certificate, a provision of
law or a requirement imposed by these rules have not been met, then the Administrator shall notify
the Beneficiary in writing of the specifics of the non-compliance and provide reasonable time limit
in which to correct the discrepancy."

Compliance Monitoring

We examined the Authority’s compliance monitoring for 257 of the 31 Qualifying Certificates active
during fiscal years 1997, 1998, and 1999. During the 3 fiscal years, the Authority (1) did not have
a formal inspection program in place; (2) did not perform all required inspections; (3) did not
prepare written inspection reports; and (4) issued Certificates of Compliance authorizing five
beneficiaries to receive tax benefits, although the beneficiaries were not in compliance. Further,


6
 The actual total of tax benefits may be significantly greater. Information on income tax and dividend income
taxrebates for 1999 was not available because beneficiaries had filed extensions to file income tax returns. Also,
information was not available on tax benefits from business privilege (gross receipts) and use taxes that could
be due to one beneficiary.

7
 The 25 Qualifying Certificates reviewed consisted of 8 held by corporations in the hotel industry: 2 held by
other non-hotel tourism corporations; 9 held by medical industry, insurance, and communications industry
corporations; and 6 held by shareholders of corporations holding qualifying certificates.
                                                       22
the Authority used an estimated $220,000 in surveillance fees for other Authority operations. The
Administrator stated that the Authority’s compliance monitoring efforts were hindered by a
shortage of trained personnel but that efforts were ongoing to improve the monitoring program.
In August 1999, the Authority increased its monitoring efforts, and we therefore extended the
period of our review to evaluate these efforts. Although significant progress was made, as of
June 30, 2000, additional improvements were still needed. As a result of the deficiencies noted,
the Government of Guam may lose tax revenues of at least $459,777.

        Inspections. Section 3a of the Rules and Regulations requires that on-site inspections be
performed at least semiannually, and Section 4 requires that detailed inspection reports be
prepared within 15 working days of the dates of inspections. Despite these requirements, during
fiscal years 1997, 1998, and 1999, the Authority documented that it had performed only 31 of the
90 required on-site inspections. Since only inspection dates were documented, we could not
determine if the reports were prepared in a timely manner.

According to the Authority’s Chief Financial Officer, beginning in August 1999, the Authority
increased the amount of resources and the priority given to its compliance monitoring program.
Therefore, we extended our review to assess compliance monitoring efforts through December 31,
1999 and the Authority’s actions through June 30, 2000 related to identified monitoring issues.
Although the level and the effectiveness of monitoring activity increased during fiscal year 1999 and
the first 3 months of fiscal year 2000, as of June 30, 2000, the Authority had not adopted a formal
monitoring program, had performed only 6 of the 38 required inspections, and had not issued
written monitoring reports on 32 inspections performed during calender year 1999. The
Authority’s Programs and Compliance Officer stated that the requirement for semiannual
inspections could not be met with the available staff and that the procedures to formalize the
compliance monitoring process were still in the draft stage.

        Certificates of Compliance. During fiscal years 1997 and 1998, the Authority determined
that five beneficiaries were not in compliance with their Qualifying Certificates but did not issue
notices of noncompliance in a timely manner. Further, in three instances in fiscal year 1997 and
four instances in fiscal year 1998, the Authority issued Certificates of Compliance although the
recipients were not in compliance with requirements of their Qualifying Certificates. Based on these
incorrectly issued Certificates of Compliance, as of June 30, 2000 the beneficiaries had improperly
received abatements of property taxes and/or rebates of income taxes totaling $459,777. The
Authority subsequently recommended granting waivers to two beneficiaries for another eight
instances of noncompliance during fiscal years 1998 and 1999 (see "Temporary Employment
Waivers" in this finding).

       Surveillance Fees. The Guam Code Annotated (12 G.C.A. § 58144 and 58145)
provides for the recovery of extraordinary costs incurred to "process the application or monitor the
Beneficiary’s performance of the terms and conditions of the Qualifying Certificate" and for a
periodic adjustment of fees "upon demonstration to the Authority by the Administrator that the cost
of performing the services covered by the fees is greater than the amount of the fees." Although
there was no specific legal requirement to restrict the use of the surveillance fees to compliance

                                                23
monitoring, the cited provisions clearly allow the use of the fees to finance the Authority’s
monitoring efforts, particularly since Authority officials cited the lack of adequate staff to effectively
carry out the monitoring program. Despite these factors, during fiscal years 1997, 1998, and
1999, the Authority used only $463,7068 of the surveillance fee collections totaling $683,605 to
cover the costs of the compliance process. The approximately $220,000 balance of the
surveillance fees was apparently used to fund other Authority operations. According to the Deputy
Administrator and the Chief Financial Officer, the Authority needed these funds for nonmonitoring
expenses because other funding sources were inadequate to cover the Authority’s operating
expenses.

Temporary Employment Waivers

During fiscal year 2000, the Authority recommended that the Governor retroactively approve
temporary employment waivers for seven beneficiaries included in our review. The seven
beneficiaries9 requested the waivers after the Authority issued a total of 21 letters of noncompliance
to them during fiscal year 1999. The letters notified the beneficiaries that they had not met the
minimum employment levels required in their Qualifying Certificates. According to the Qualifying
Certificates, six of the seven beneficiaries10 were required to employ a total of 1,777 Guam
residents. However, the Authority determined that during fiscal year 1999, the six beneficiaries
employed an average total of only 1,504 Guam residents, or 273 fewer than required by the
Qualifying Certificates.

As of June 30, 2000, the Governor had approved four waivers and was considering two other
waiver recommendations. The written justifications for the waivers stated that six of the waivers
were necessary because of declining economic conditions on Guam and that the other waiver was
necessary because of damage from the December 1997 Typhoon Paka. Further, the waivers
retroactively approved the beneficiaries’ receipt of fiscal year 1998 tax abatements totaling
$481,495. However, we noted that the four businesses whose waivers had expired had still not
hired the required number of employees. As a result of the waivers, the Government of Guam lost
tax revenues of at least $815,990,11 and as of June 30, 2000, the six beneficiaries employed 371
fewer employees than required in their contracts, as shown in Table 2.


8
 Since the Authority did not identify its costs for the compliance process, we estimated these costs by
allocating personnel and administrative expenditures based on observations and employee interviews. For the
three fiscal years, we estimated that the Authority incurred $278,472 in personnel and $185,234 in administrative
costs for compliance monitoring.

9
 The Authority recommended temporary employment waivers for eight beneficiaries, including the seven in
our sample. As of June 30, 2000, the one beneficiary not included in our review employed 55 fewer persons than
the number required in the Qualifying Certificate and received tax benefits totaling at least $186,789.

10
  We did not include one of the seven beneficiaries because the Qualifying Certificate was unclear regarding
the employment requirements.

11
 To avoid duplicate counting elsewhere in this finding, only $634,340 of this amount was included in
Appendix 1.
                                                      24
         Table 2. Qualifying Certificate Waivers of Employment Requirements

                 Number of        Average No.            Date            Calender Year       Number of         Difference
Effective        Employees        of Employees           Waiver            Period of         Employees         From No.
Date of QC        Required         in FY 1999           Requested           Waiver           at 06/30/00       Required

10/24/86             280                  274           11/26/99*                1999              272               8
06/12/87             360                  330           02/16/00**            1999/2000            283              77
04/11/91             327                  219           11/09/99*             1998/1999            223             104
05/01/96             150                  133           01/12/00**            1999/2000            140              10
09/05/97             520                  422           10/19/99*             1998/1999            364             156
05/01/98             140                  126           01/13/00*                1999              124              16

 Total             1,777                1,504                                                    1,406             371
__________
* Waivers were approved by the Governor of Guam on March 22, 2000.
** Waivers were approved by the Authority but, as of June 30, 2000, were still awaiting the Governor’s approval.


According to Authority records, in one instance a beneficiary with a required employment level of
520 fell below the required level for the first time in January 1998. Subsequently, the beneficiary’s
employment level steadily dropped to 440 by January 1999 and to 390 by January 2000. During
the period of March 3, 1999 to November 26, 1999, the Authority issued six letters of
noncompliance to the beneficiary. On October 19, 1999, the beneficiary applied for a temporary
employment waiver for calender years 1998 and 1999. On November 30, 1999, the Authority
recommended that the waiver be approved because of "Guam’s current economic condition" and
the beneficiary’s operating losses following a large investment in facility expansion. The Governor
approved the waiver on March 22, 2000. Because of the waiver, the beneficiary received tax
benefits of at least $237,825 for fiscal year 1998 and at least $90,82512 for fiscal year 1999. The
2-year retroactive waiver expired on December 31, 1999, but the beneficiary continued to reduce
the number of employees rather than increase employment in compliance with the Qualifying
Certificate. As of June 30, 2000, the beneficiary’s total employment was 364, or 156 (30 percent)
below the required level.

In our opinion, the Authority should have either negotiated with the beneficiaries to reduce the value
of the tax benefits received or suspended the Qualifying Certificates until such time as the
beneficiaries meet the hiring levels. Under the law, the Governor of Guam upon recommendation
of the Authority also could revoke or the beneficiaries could relinquish their certificates. By
granting waivers to the noncompliant beneficiaries, the Authority unilaterally gave up at least 371
jobs the beneficiaries had agreed to provide to Guam residents while allowing the same businesses
to continue receiving their full tax benefits. We believe that these actions also could have provided
the beneficiaries a competitive advantage versus other similar businesses by allowing them to
reduce their operating costs while continuing to receive the tax benefits.



12
  Additional tax benefits may have been received from income tax rebates and business privilege (gross
receipts) and use tax abatements. However, we were unable to readily quantify such benefits based on available
Government of Guam records.
                                                           25
Recommendations

We recommend that the Chairman of the Board of Directors of the Guam Economic Development
Authority direct the Authority’s Administrator to:

       1. Develop and submit to the Board for adoption policies and standard operating
procedures to ensure that the Authority limits the use of surveillance fees to pay personnel and
other expenses related to monitoring the compliance of beneficiaries with the requirements of their
Qualifying Certificates and tracks surveillance costs to determine if surveillance fees need to be
adjusted.

      2. Finalize and submit to the Board for adoption formal procedures for the compliance
monitoring program.

      3. Provide training to compliance monitoring staff to ensure that all aspects of the
monitoring process are performed in a consistent and timely manner.

        4. Develop and submit to the Board for adoption regulations to quantify the cost to the
Government of Guam and to the Guam workforce of temporary waivers and require negotiations
to ensure that beneficiaries either give up a portion of their benefits in exchange for waivers of
certificate requirements or suspend certificate benefits pending correction of the noncompliance
issues.

Guam Economic Development Authority Response and Office of
Inspector General Reply

In the August 10, 2001 response (Appendix 2) to the draft report from the Authority’s Chairman
of the Board, the Authority concurred with Recommendations 2 and 3, and did not concur with
Recommendations 1 and 4. Based on the response, we requested additional information for
Recommendations 2 and 3, and requested that the Authority reconsider Recommendations 1 and
4, which are unresolved (see Appendix 3).

Recommendation 1. Nonconcurrence.

       Guam Economic Development Authority Response. The Authority stated that the
recommendation was unnecessary because the costs of the monitoring function exceeded the
revenues from surveillance fees. Furthermore, Authority stated that the annual salaries and benefits
of the division manager and the four full-time staff personnel exceeded the average annual
surveillance fee collections.

       Office of Inspector General Reply. The Authority’s response allocated 100 percent of
the salary and fringe benefit costs for the compliance division manager and staff to Qualifying
Certificate monitoring activities and concluded that those costs exceeded surveillance fee

                                                26
collections. However, in addition to the Qualifying Certificate Program, the compliance division
was also responsible for performing compliance monitoring activities for the Authority’s loan and
leasing programs. Because the surveillance fees were collected solely under the Qualifying
Certificate Program, we believe that, for comparative purposes, only the costs associated with
Qualifying Certificate compliance monitoring efforts should be considered. Therefore, we
estimated that the Authority applied about $220,000, almost one-third of the surveillance fees
collected, to other operations.

Recommendation 2. Concurrence.

        Guam Economic Development Authority Response. The Authority agreed that the
adoption of formal standard operating procedures for compliance monitoring is essential, and stated
that it had drafted standard operating procedures for compliance monitoring of the Qualifying
Certificate Program. The Authority stated that the standard operating procedures will add to the
already-developed and approved procedures for the underwriting process, as developed by the
Authority’s Industry Development Division. The Authority also stated that its objective was to
obtain Board approval of the compliance monitoring procedures before the end of fiscal year 2001.

      Office of Inspector General Reply. The response did not specifically state when the
Administrator will finalize and submit the compliance monitoring procedures to the Board for
approval.

Recommendation 3. Concurrence.

        Guam Economic Development Authority Response. The Authority agreed that formal
training was needed for maintaining professional development in all aspects of the work place.
However it disagreed that compliance monitoring was not done in a consistent and timely manner
as a result of not having training opportunities. The Authority stated that monthly reports were
provided to the Board on a timely basis and that annual compliance reports were completed in
accordance with Part 2 of the Rules. The Authority also stated that the economic hardship
experienced by the entire Government of Guam minimized some costly training opportunities, but
that cross-training, statutory review, program evaluation, and assessment training were provided
to the compliance staff.

      Office of Inspector General Reply. Although we commend the Authority for providing
informal, on-the-job training opportunities to the compliance staff, the response did not indicate if
and when formal training would be provided.

Recommendation 4. Nonconcurrence.

      Guam Economic Development Authority Response. The Authority stated that the law
already provides it with the authority to negotiate the specific conditions of Qualifying Certificates.
The Authority also asserted that it acted in accordance with the Qualifying Certificate law when


                                                 27
issuing the temporary waivers. With regard to the related finding, the Authority stated that the
correct legal citation for the finding is 12 G.C.A. § 58126, and not 12 G.C.A. § 58111.

       Office of Inspector General Reply. We cited 12 G.C.A. § 58111 because this
provision lists the grounds, most notably noncompliance, for which a Qualifying Certificate can be
suspended, rescinded, or revoked. Such remedial action can be taken when the certificate holder
has not corrected its noncompliance with the Qualifying Certificate law, applicable rules and
regulations, or any condition or obligation in the Certificate after having been notified by the
Authority in writing of such failure to comply and after having been given by the Authority a
reasonable period of time within which to correct such failure. This provision of the law was
therefore cited as the criteria for actions the Authority should take in enforcing compliance with the
terms and conditions of Qualifying Certificates. In contrast, 12 G.C.A. § 58126, which was cited
by the Authority, relates to actions (issuance, modification, renovation, and suspension) on
Qualifying Certificates that may be recommended by the Board to the Governor of Guam and the
timetable for the Governor’s approval or disapproval of such action.

The Authority processed temporary waivers from employment or other conditions in the Qualifying
Certificates as modifications to the Certificates. In our opinion, it was not a good policy for the
Authority to routinely recommend such modifications to ease the Certificate terms and conditions
without negotiating corresponding reductions of tax benefits granted to the certificate holders
whenever the holders did not meet the requirements it had agreed to at the time the Qualifying
Certificates were issued. The temporary waivers cited in the finding were granted primarily to
certificate holders who were chronically in a noncompliance status. By definition, the Qualifying
Certificate is a contract between the Government of Guam and a beneficiary who has qualified for
tax rebates and/or abatements in return for meeting certain employment, investment, and other
requirements. The seemingly routine retroactive approval of waivers by the Authority, as disclosed
in the finding, negated the rationale for the beneficiary to comply with its obligations (i.e., the terms
and conditions of the Qualifying Certificate) and reduced compliance monitoring to a "window-
dressing" process. There should be a penalty (such as relinquishment or reduction of tax benefits)
associated with the waiver of Certificate requirements, especially in the case of chronically
noncompliant beneficiaries.




                                                  28
C. ABATEMENT OF GROSS RECEIPTS AND USE TAXES

Gross receipts taxes of more than $5 million and an undetermined amount of use taxes were abated
improperly and without verification of the amount or eligibility. This occurred because the Guam
Economic Development Authority did not ensure that the Guam Department of Revenue and
Taxation and the Guam Customs and Quarantine Agency correctly granted Qualifying Certificate
abatements of gross receipts and use taxes. Because of an oversight, the Authority had not initiated
action to coordinate and develop monitoring procedures with these two agencies to ensure that
gross receipts and use taxes were abated only on eligible expenditures. In addition, the Authority
had misinterpreted a Board of Director’s resolution and thought it had removed the requirement
to monitor contractor claims for gross receipt tax abatements.

Gross Receipts Taxes

The Guam Code Annotated (12 G.C.A. § 58127.5) provides that gross receipts taxes may be
abated for periods of up to 20 years (renewable for additional 20-year periods) for qualified
insurance companies. The Code (12 G.C.A. § 70105(a)) also provides that contractors working
on hotels, other tourist facilities, or affordable housing developments may also receive gross
receipts tax abatements. In both instances, eligibility for the abatements is to be evidenced by
Qualifying Certificates issued by the Authority.

Of the 31 Qualifying Certificates active as of December 31, 1999, 6 Certificates included the
abatement of gross receipts taxes for insurance companies and 1 included the abatement of gross
receipts taxes for 20 contractors working on a hotel expansion project. To evaluate the abatement
process and determine the amount of gross receipts taxes abated, we reviewed available records
at the Business Privilege Branch of the Department of Revenue and Taxation.

       Insurance Companies. During fiscal years 1998 and 1999, Revenue and Taxation officials
incorrectly accepted and processed claims for gross receipts tax abatements from four of the six
insurance company beneficiaries based on copies of the beneficiaries’ Qualifying Certificates that
were attached to gross receipts tax returns. The Supervisor of the Business Privilege Branch said
she did not know that the Authority issued Certificates of Compliance which were required before
tax abatements should be approved. The Deputy Tax Commissioner, Department of Revenue and
Taxation, stated that the Department did not have procedures for administering gross receipts tax
abatement claims and that he had understood that the Authority would draft such procedures. In
addition, until May 2000, Authority personnel had not coordinated with Revenue and Taxation
gross receipts tax personnel to assist in processing gross receipts tax abatement claims. Further,
according to the Authority’s Compliance and Internal Auditing Supervisor, the Authority had not
prepared or adopted procedures to either monitor or process the actual granting of gross receipts
tax abatements. As a result, Revenue and Taxation officials incorrectly authorized abatements of
gross receipts taxes totaling at least $2,902,598, including $677,802 to three beneficiaries whom
the Authority had determined were not in compliance with their Qualifying Certificates, as shown
in Table 3.

                                                29
         Table 3. Insurance Company Gross Receipts Taxes Improperly Abated

  Effective        Amount of                    Taxes Abated Although                 Tax Revenue
 Date of QC       Taxes Abated            Not in Compliance Unauthorized*            At Risk of Loss

   12/02/97         $679,528                $171,313               $508,215             $679,528
   01/01/98         1,008,749                478,774                292,605              771,379**
   01/01/98         1,281,112                    -                1,281,112            1,281,112
   10/01/98           170,579                 27,715                142,864              170,579

     Total        $3,139,968                $677,802            $2,224,796           $2,902,598
__________
* The Authority had not made a determination of compliance or issued certificates of compliance on these
abatements. Therefore, some or all of these amounts may retroactively be determined to be authorized.
** This company subsequently declared bankruptcy.


        Construction Companies. On June 5, 1998, the Authority issued a Qualifying Certificate
to a corporation for a major hotel expansion project. Through the Qualifying Certificate, 20
different contractors received special certificates authorizing each contractor to receive a tax
abatement for work related to the expansion project. The contractors were required to certify that
all tax abatements received were passed on to the hotel. Based on documents obtained from the
Department of Revenue and Taxation, as of March 31, 2000, 11 of the 20 contractors had made
a total of 55 claims for abatement of gross receipts taxes. Only 1 of the 55 abatement claims was
supported by a Certificate of Compliance issued by the Authority. Instead, the 11 contractors
submitted gross receipts tax returns with copies of the Qualifying Certificates and claimed tax
abatements of at least $2,116,966. As of the time of our review, Revenue and Taxation had
processed and approved the tax returns related to abatements totaling $432,782 but had not yet
processed the tax returns for the remaining $1,682,184 in claimed abatements.

According to Authority personnel, the Authority had not implemented a compliance review process
because they thought that a Board of Director’s resolution exempted the contractors from all
monitoring requirements. However, although Board of Director’s Resolution 99-030, approved
on June 23, 1999, exempted the contractors from complying with four Qualifying Certificate
requirements, the resolution added a requirement that the contractors were to submit statements
prepared by independent accountants documenting the amount of expenditures qualifying for the
gross receipts tax abatements. As of June 30, 2000, the Authority had not received any of the
required independent accountants’ statements. Without a review process for the tax abatement
claims, the validity of the claims could not be determined and there was a potential for a contractor
to claim abatements for taxes based on revenues from sources other than the hotel expansion
project. For example, we noted that 4 of the 11 contractors who submitted claims had included
gross receipts tax abatements totaling $21,788 more than the Authority had initially authorized
based on the approved construction contracts provided to the Authority.




                                                  30
Use Taxes

The Guam Code Annotated (11G.C.A. § 28103 and § 28104) provides that an excise tax of
4 percent will be levied on the use or consumption of all property brought into Guam. In
accordance with the Code (11G.C.A. § 28105(e)), the tax is collected by the Guam Customs and
Quarantine Agency on behalf of the Department of Revenue and Taxation. The Code
(12 G.C.A. § 70105 (b)) also provides for an exemption (abatement) for property to be used to
construct, furnish, and equip hotels and tourist facilities. Lastly, the Code (11 G.C.A. § 28105(f))
authorized the Department of Revenue and Taxation to promulgate rules and regulations to enforce
the use tax law.

During fiscal years 1997 and 1998, the Authority issued Qualifying Certificates to two beneficiaries
granting them the right to receive use tax abatements on the hotel renovation projects. The
Director of the Guam Customs and Quarantine Agency stated that Customs did not determine and
could not provide information on the total amount of use taxes abated for the two beneficiaries
because the agency collects information only on taxes collected. The Director also said that, as
of June 30, 2000, the Department of Revenue and Taxation had not provided rules and regulations
for collection of the use tax, as required by the Guam Code Annotated.

Although specific information was not available to determine the amount of use tax abatements, we
estimated that the amount of use tax eligible for abatement for one of the two hotel projects was
about $180,000, based on an estimated cost for furniture and fixtures of $4.5 million and taxed at
a 4 percent rate. According to a Customs official, Customs personnel authorized companies to
receive, without payment of the use tax, otherwise taxable property based on photocopies of their
Qualifying Certificates. There were no procedures to ensure that the recipients of the tax
abatements were in compliance with the Qualifying Certificates or that the furniture and fixtures
were destined for projects included in the Qualifying Certificates. Although the unavailability of
appropriate documents prevented us from specifically identifying potential improper abatements,
in our opinion, the lack of adequate internal control procedures may have allowed otherwise
taxable furniture and fixtures to avoid taxation.

Recommendations

We recommend that the Chairman of the Board of Directors of the Guam Economic Development
Authority direct the Authority’s Administrator to:

       1. Coordinate with the Department of Revenue and Taxation to develop and implement
procedures to ensure that gross receipts tax abatements are granted only to applicants who comply
with their Qualifying Certificate requirements.

       2. Coordinate with the Director of the Customs and Quarantine Agency to develop and
implement procedures to ensure that use tax abatements are granted only to applicants who comply
with their Qualifying Certificate requirements.

                                                31
       3. Develop and implement procedures to ensure that contractors submit the required
independent accountants’ statements, that the statements are matched with tax abatement claims
before Certificates of Compliance are issued, and that the original Qualifying Certificate
beneficiaries are notified of the amount of tax abatements received by each subcontractor covered
under the primary Qualifying Certificates.

      4. Review the questioned gross receipts tax and use tax abatements discussed in this finding
to determine whether the tax abatements were allowable and, if not allowable, apprise the
Department of Revenue and Taxation of the need to collect the improperly abated taxes.

Guam Economic Development Authority Response and Office of
Inspector General Reply

In the August 10, 2001 response (Appendix 2) to the draft report from the Authority’s Chairman
of the Board, the Authority concurred with Recommendations 1 and 2, and did not concur with
Recommendations 3 and 4. Based on the response, we requested additional information for
Recommendations 1 and 2, and requested that the Authority reconsider Recommendations 3 and
4, which are unresolved (see Appendix 3).

Recommendations 1 and 2. Concurrence.

          Guam Economic Development Authority Response. The Authority stated that it is
critical for all agencies to meet regularly to develop and implement procedures not only for the
issuance of gross receipts tax exemptions, but for other tax incentives offered by the Qualifying
Certificate Program. The Authority also stated that it has regularly coordinated with the
Department of Revenue and Taxation to discuss program guidelines and the compliance status of
each beneficiaries. The Authority further stated that Qualifying Certificate Program guidelines and
policies only require the Authority to coordinate with the Department of Revenue and Taxation,
but that the Authority will "make a more concerted effort to involve the Customs and Quarantine
Agency in its meetings and to better establish program control measures."

        Office of Inspector General Reply. Had good coordination occurred between the
Authority and the Department of Revenue and Taxation, there would not have been the situation
where beneficiaries were able to file for and obtain the abatements from Revenue and Taxation
without input from the Authority as to the beneficiaries’ compliance status. Apparently, there was
inadequate communication between the two agencies as to the requirements for abatement filing.
This is why we believe that the Authority should ensure that the coordination procedures are
formalized in writing and approved by the Department of Revenue and Taxation, the Custom and
Quarantine Agency, and the Authority’s Board.
Recommendation 3. Nonconcurrence.

        Guam Economic Development Authority Response. The Authority agreed that
procedures are needed to ensure that the accountants’ statements are matched to tax abatement
claims, and stated that this practice has been addressed in draft standard operating procedures.
                                                32
However, the Authority disagreed that a Certificate of Compliance must be issued prior to the tax
abatement claims. The Authority indicated that if the beneficiary is found to be in noncompliance
at the year-end review, the tax incentives must be reimbursed with penalties.

        Office of Inspector General Reply. Beneficiaries are already required to submit
detailed monthly reports to the Compliance Division, therefore the monthly accountants’ financial
statements should not be an undue burden for the beneficiaries to submit or for the Authority to
review. Additionally, we found no indication during the audit that the Authority had matched the
accountants’ statements with the contractors’ abatements.

Recommendation 4. Nonconcurrence.

        Guam Economic Development Authority Response. The Authority stated that the
recommendation should be addressed to the Department of Revenue and Taxation, but stated that
it "does take note of this issue and will separately discuss the issue" with the Department of
Revenue and Taxation. The Authority also stated that the Qualifying Certificate law authorizes the
Tax Commissioner of Guam to issue rules as deemed necessary to implement the procedures
outlined in Chapter 58 of the Qualifying Certificate law.

        Office of Inspector General Reply. The issue is not the need for the issuance of rules
to implement the procedures outlined in the Qualifying Certificate law (12 G.C.A. Chapter 58), but
the need for the Authority to coordinate with the Department of Revenue and Taxation regarding
the questioned tax abatements discussed in the finding. We have revised the recommendation to
require that the Authority review the questioned gross receipts tax and use tax abatements to
determine whether the tax abatements were allowable and, if not allowable, to apprise the
Department of Revenue and Taxation of the need to collect the improperly abated taxes.




                                               33
D. REINVESTMENT OF TAX BENEFITS

Legally mandated investments in Guam’s economy totaling at least $2.3 million may not have taken
place because the Guam Economic Development Authority did not include language in Qualifying
Certificates requiring beneficiaries to reinvest tax benefits and, for those Certificates that included
the reinvestment requirement, did not monitor the beneficiaries’ compliance. This occurred
because the Authority’s (1) procedures did not require and staff neglected to include the necessary
language in Certificates amended after passage of the law requiring benefit reinvestment and (2)
management was unclear on how to determine compliance with the reinvestment requirement.

Reinvestment Requirement

The Guam Code Annotated (12 G.C.A. § 58142) requires that each recipient of a Qualifying
Certificate, except insurance carriers, invest in the Guam economy no less than 50 percent of any
taxes rebated or abated for a period of 5 years following the rebate or abatement. Beneficiaries
are also required to provide reports identifying the amounts reinvested during each fiscal year. The
law became effective on December 29, 1994, and the Authority should have included this
requirement in all applicable Qualifying Certificates issued or amended after that date.

During the period of December 29, 1994 to December 31, 1999, the Authority issued or amended
eight Qualifying Certificates that appear to be subject to the reinvestment requirement law. We
determined that the Authority included the required language in six new Qualifying Certificates that
were issued during this period. However, the Authority did not include the requirement in two
Qualifying Certificates that were amended in November 1995 and June 1998, respectively. The
Authority’s Deputy Administrator and the Chief Financial Officer could not explain how this
oversight occurred. However, we noted that the Authority’s Rules and Regulations and standard
operating procedures for issuance of Qualifying Certificates did not include a requirement to ensure
that the required reinvestment clause was included in all new and amended Qualifying Certificates.
The Authority’s Administrator stated that the Authority could amend the Certificates to include the
50 percent reinvestment requirement.

Based on tax information available as of June 30, 2000, we determined that the two beneficiaries
with amended Qualifying Certificates had received rebates and abatements for fiscal years 1997
and 1998 that totaled $3,626,027 and that the beneficiaries may receive substantial future rebates
and abatements. As a result of not including the reinvestment clause in the two amended Qualifying
Certificates, Guam’s economy may lose additional investments of at least $1,813,01313 as follows:

        - Effective November 28, 1995, the Authority issued an amendment to a hotel’s existing
Qualifying Certificate, incorporating the hotel’s new expansion and existing facilities for an
additional 5 years. The amended Certificate did not include a clause requiring the hotel to reinvest


13
 To avoid duplicate counting elsewhere in this finding, only $1,472,530 of this amount was included in
Appendix 1.
                                                 34
50 percent of tax benefits. We determined that the hotel received corporate income tax rebates
of $2,945,060 for fiscal years 1997 and 1998, and we estimated that the hotel should have
reinvested about $1,472,530 of the tax benefits in the island’s economy.

        - Effective June 5, 1998, the Authority issued a new Qualifying Certificate to another hotel,
incorporating the hotel’s new expansion and existing facilities for an additional 20 years. The new
Qualifying Certificate did not include a clause requiring reinvestment of 50 percent of tax benefits.
We determined that the hotel received tax abatements and rebates of at least $680,967 for fiscal
years 1997, 1998 and 1999,14 and we estimated that the hotel should have reinvested about
$340,483 of the tax benefits in the island economy.

Reinvestment Monitoring

The Authority was unable to document that any of the six beneficiaries with the reinvestment clause
in their Qualifying Certificates had actually reinvested the required 50 percent of their tax benefits
because none of the six beneficiaries had submitted the required reinvestment reports. Of the six
beneficiaries, the Authority had determined that four were not in compliance with their Qualifying
Certificates for fiscal years 1997, 1998 and 1999. Therefore, only two beneficiaries were
authorized to receive and did receive tax benefits. Although the Authority began monitoring the
reinvestment clause in August 1999, the Deputy Administrator and the Chief Financial Officer said
that the law was ambiguous. The two officials said that there are many ways to "reinvest" and that
there was not a clear definition in the law of the type of "reinvestment" that was to occur. They also
said that without more detailed guidance, the Authority would find it difficult to enforce the
reinvestment requirement. However, if the Authority does not enforce the reinvestment provision,
the beneficiaries’ 5-year reinvestment period could expire without any reinvestment occurring. As
a result of not effectively monitoring and enforcing the reinvestment clause for the six beneficiaries,
Guam’s economy could lose at least $526,63315 of additional investments, as shown in Table 4.




14
  The $680,967 represents use tax exemptions, real property tax abatements and income tax rebates for fiscal
years 1997, 1998 and 1999. Possible additional benefits from income tax rebates for fiscal year 1999 were not
known at June 30, 2000.

15
     To avoid duplicate counting elsewhere in this finding, only $265,948 was included in Appendix 1.
                                                       35
                  Table 4. Required Investment of Abated/Rebated Taxes

     Effective Date of                   Amount of Abated                Reinvestment Amount
    Qualifying Certificate               or Rebated Taxes                 at Risk of Loss

          05/01/96                            $192,720                        $96,360
          09/05/97                             860,546                        430,273

          Total                            $1,053,266                        $526,633


In our opinion, if the Authority had acted in an expeditious manner to resolve questions regarding
the reinvestment law and enforced the reinvestment provision, Guam’s economy would have
benefitted from additional investments. Further inaction could deprive the economy of additional
reinvestment opportunities. Although the exact definition of the 5-year reinvestment period is
unclear, we presume that the period applies to the tax benefits received on a year-by-year basis.
Therefore, it is possible that the 5-year period could act as a statute of limitations that relieves the
beneficiaries of having to comply with the reinvestment requirement for each year in order to
receive that year’s tax benefits.

Recommendations

We recommend that the Chairman of the Board of Directors of the Guam Economic Development
Authority direct the Authority’s Administrator to:

      1. Request that the Guam Legislature amend the Guam Code Annotated
(12 G.C.A. § 58142) to clarify the types of reinvestment to be required of Qualifying Certificate
beneficiaries and the meaning of the 5-year reinvestment period.

       2. Amend the Qualifying Certificates that were issued after December 29, 1994, to include
the reinvestment requirement mandated by the Guam Code Annotated.

       3. Develop and implement rules and regulations and standard operating procedures to
ensure that the Authority includes the reinvestment clause in all new and amended Qualifying
Certificates and has a process to monitor compliance with the reinvestment requirement.

Guam Economic Development Authority Response and Office of
Inspector General Reply

In the August 10, 2001 response (Appendix 2) to the draft report from the Authority’s Chairman
of the Board, the Authority concurred with Recommendations 1 and 3, and did not concur with
Recommendation 2. Based on the response, we requested additional information for


                                                  36
Recommendations 1 and 3, and requested that the Authority reconsider Recommendation 2, which
is unresolved (see Appendix 3).

Recommendation 2. Nonconcurrence.

       Guam Economic Development Authority Response. The Authority stated that because
the 5-year moratorium was lifted and the first Qualifying Certificate was issued in the summer of
1996, all Certificates include the reinvestment requirement in accordance with the Qualifying
Certificate law. The Authority claimed that only one Qualifying Certificate (No. 219) did not
include the reinvestment provision, but that the Certificate included the requirement that the
recipient "comply with all laws of Guam and the rules and regulations of its various agencies,
including and not limited to those set out in the [Qualifying Certificate] law, and in applicable rules
and regulations." The Authority concluded that because of this general requirement, a specific
reinvestment provision was not needed.

        Office of Inspector General Reply. Despite the Authority’s statement, two (not one)
Qualifying Certificates did not include the reinvestment provision. The second such Certificate
(No. 169) was an amendment to a prior Certificate that was essentially a new Certificate because
it contained completely new terms and conditions and became effective on November 28, 1995,
after the December 29, 1994 effective date of the revised Qualifying Certificate law (P.L. 22-159).
Therefore, this Qualifying Certificate also should have included the reinvestment provision required
by the new law. We acknowledge that the general compliance provision contained in Qualifying
Certificate No. 219 requires the beneficiary to comply with provisions of the Qualifying Certificate
law and applicable rules and regulations. However, in our opinion, it would be preferable for the
Authority to amend the two Qualifying Certificates (Nos. 219 and 169) to specifically include the
reinvestment provision.




                                                 37
                                                                  APPENDIX 1


             CLASSIFICATION OF MONETARY AMOUNTS*


                                                                 Funds to Be
                                                    Unrealized      Put To
                      Finding Area                  Revenues      Better Use
 A. Approval of Qualifying Certificates
      Projects in Tourist Areas                      769,650     $28,528,822
      Timing of Application Filings                               24,266,430
      Negotiation of Tax Benefits                                 17,966,784

 B. Compliance with Qualifying Certificates
      Compliance Monitoring                                         459,777
      Temporary Employment Waivers                   634,340

 C. Abatement of Gross Receipts and Use Taxes
      Gross Receipts Taxes                                         5,019,564

 D. Reinvestment of Tax Benefits
       Reinvestment Requirement                                    1,472,530
       Reinvestment Monitoring                     _________         265,948

     Total                                         $1,403,990    $77,979,855




__________
*All amounts represent local funds.




                                              38
                                     APPENDIX 2
                                      Page 1 of 31


GUAM ECONOMIC DEVELOPMENT AUTHORITY RESPONSE




                     39
     APPENDIX 2
      Page 2 of 31




40
     APPENDIX 2
      Page 3 of 31




41
     APPENDIX 2
      Page 4 of 31




42
     APPENDIX 2
      Page 5 of 31




43
     APPENDIX 2
      Page 6 of 31




44
     APPENDIX 2
      Page 7 of 31




45
     APPENDIX 2
      Page 8 of 31




46
     APPENDIX 2
      Page 9 of 31




47
     APPENDIX 2
     Page 10 of 31




48
     APPENDIX 2
     Page 11 of 31




49
     APPENDIX 2
     Page 12 of 31




50
     APPENDIX 2
     Page 13 of 31




51
     APPENDIX 2
     Page 14 of 31




52
     APPENDIX 2
     Page 15 of 31




53
     APPENDIX 2
     Page 16 of 31




54
     APPENDIX 2
     Page 17 of 31




55
     APPENDIX 2
     Page 18 of 31




56
     APPENDIX 2
     Page 19 of 31




57
     APPENDIX 2
     Page 20 of 31




58
     APPENDIX 2
     Page 21 of 31




59
     APPENDIX 2
     Page 22 of 31




60
     APPENDIX 2
     Page 23 of 31




61
     APPENDIX 2
     Page 24 of 31




62
     APPENDIX 2
     Page 25 of 31




63
     APPENDIX 2
     Page 26 of 31




64
     APPENDIX 2
     Page 27 of 31




65
     APPENDIX 2
     Page 28 of 31




66
     APPENDIX 2
     Page 29 of 31




67
     APPENDIX 2
     Page 30 of 31




68
     APPENDIX 2
     Page 31 of 31




69
                                                                           APPENDIX 3
                                                                             Page 1 of 4

     STATUS OF AUDIT REPORT RECOMMENDATIONS

Finding/Recommendation
       Reference            Status                       Action Required

         A.1             Unresolved.        Reconsider the recommendation and
                                            provide a response indicating concurrence
                                            or nonconcurrence. If concurrence is
                                            indicated, provide the target date for
                                            working with the Legislature to amend the
                                            Qualifying Certificate law and related
                                            regulations accordingly.

         A.2             Management         Provide the target date for the
                         concurs;           Administrator to establish procedures and
                         additional         develop methods to include costs to the
                         information        Government in the economic analysis of
                         requested.         Qualifying Certificates.

         A.3             Management         Provide the target date for the
                         concurs;           Administrator to adopt procedures to
                         additional         document negotiations on Qualifying
                         information        Certificates. We request that a copy of the
                         requested.         procedures be submitted to this office.

         B.1             Unresolved.        Reconsider the recommendation and
                                            provide a response indicating concurrence
                                            or nonconcurrence. If concurrence is
                                            indicated, provide the target date for the
                                            Administrator to develop and submit to the
                                            Board for adoption policies and standard
                                            operating procedures on limiting and
                                            tracking the use of surveillance fees.

         B.2             Management         Provide the target date for the
                         concurs;           Administrator to finalize and submit formal
                         additional         compliance monitoring procedures for
                         information        Board adoption. We request that a copy of
                         requested.         the Board-approved procedures be
                                            submitted to this office.




                                       70
                                                                           APPENDIX 3
                                                                             Page 2 of 4


Finding/Recommendation
       Reference            Status                       Action Required

         B.3             Management         Provide the target date for the
                         concurs;           Administrator to provide formal training to
                         additional         compliance staff.
                         information
                         requested.

         B.4             Unresolved.        Reconsider the recommendation and
                                            provide a response indicating concurrence
                                            or nonconcurrence. If concurrence is
                                            indicated, provide the target date for the
                                            Administrator to develop and submit to the
                                            Board for adoption regulations on
                                            quantifying the cost of temporary waivers
                                            and requiring negotiations. We request that
                                            copies of the Board-approved regulations
                                            be submitted to this office.

         C.1             Management         Provide the target date for the
                         concurs;           Administrator to coordinate with the
                         additional         Department of Revenue and Taxation to
                         information        establish procedures for granting gross
                         requested.         receipts tax abatements only to beneficiaries
                                            who comply with their Qualifying Certificate
                                            requirements. We request that a copy of the
                                            procedures be submitted to our office.


         C.2             Management         Provide the target date for the
                         concurs;           Administrator to coordinate with the
                         additional         Customs and Quarantine Agency to
                         information        establish procedures for granting use tax
                         requested.         abatements only to beneficiaries who
                                            comply with their Qualifying Certificate
                                            requirements. We request that a copy of
                                            the procedures be submitted to our office.




                                       71
                                                                           APPENDIX 3
                                                                             Page 3 of 4


Finding/Recommendation
       Reference            Status                       Action Required

         C.3             Unresolved.        Reconsider the recommendation and
                                            provide a response indicating concurrence
                                            or nonconcurrence. If concurrence is
                                            indicated, provide the target date for the
                                            Administrator to establish procedures for
                                            the submission of audited financial
                                            statements by contractors, the matching of
                                            the statements with gross receipts tax
                                            abatement claims, and the notification of
                                            Qualifying Certificate beneficiaries of the
                                            abatements received. We request that a
                                            copy of the procedures be submitted to our
                                            office.

         C.4             Unresolved.        Respond to the revised recommendation,
                                            indicating concurrence or nonconcurrence.
                                            If concurrence is indicated, provide the
                                            target date for the Administrator to review
                                            the gross receipts and use tax abatements
                                            questioned in the finding to determine if
                                            they are allowable and, if not allowable,
                                            coordinate with the Division of Revenue and
                                            Taxation to collect the lost revenues.

         D.1             Management         Provide the target date for the
                         concurs;           Administrator to request the Legislature to
                         additional         amend the Guam Code to clarify the types
                         information        of reinvestment to be required of Qualifying
                         requested.         Certificate beneficiaries and the meaning of
                                            the 5-year reinvestment period.

         D.2             Unresolved.        Reconsider the recommendation and
                                            provide a response indicating concurrence
                                            or nonconcurrence. If concurrence is
                                            indicated, provide the target date for the
                                            Administrator to amend Qualifying
                                            Certificates issued after December 29,
                                            1994 to include the reinvestment
                                            requirement mandated by the Guam Code.


                                       72
                                                                           APPENDIX 3
                                                                             Page 4 of 4


Finding/Recommendation
       Reference           Status                        Action Required

         D.3             Management         Provide the target date for the
                         concurs;           Administrator to establish rules and
                         additional         regulations and standard operating
                         information        procedures to include the reinvestment
                         needed.            clause in all new and amended Qualifying
                                            Certificates and a process for monitoring
                                            compliance with the investment
                                            requirement.




                                       73
 Mission Statement
 The Office of Inspector General conducts and supervises audits
 and investigations of Department of the Interior and insular area
 government programs and operations to:

 ! Promote the economy, efficiency, and effectiveness of programs
   and operations and

 ! Prevent and detect fraud, waste, and abuse in programs and
   operations.




How to Report Fraud, Waste, and Abuse
 Fraud, waste, and abuse in Government are the concern of
 everyone – Office of Inspector General staff, Departmental
 employees, and the general public. We actively solicit allegations
 of any inefficient and wasteful practices, fraud, and abuse related
 to Departmental or insular area programs and operations. You can
 report allegations to us by:

 Mail:         U.S. Department of the Interior
               Office of Inspector General
               Mail Stop 5341-MIB
               1849 C Street, NW
               Washington, DC 20240

 Phone:        24-Hour Toll Free                     800-424-5081

               Washington Metro Area                 202-208-5300
               Hearing Impaired                      202-208-2420
               Fax                                   202-208-6023

               Caribbean Regional Office             340-774-8300
               Pacific Field Office                  671-647-6060

 Internet:     www.oig.doi.gov/hotline_form.html
